              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Depleted Uranium Hexafluoride
Conversion




DOE/IG-0642                                 March 2004
DEPLETED URANIUM HEXAFLUORIDE CONVERSION

TABLE OF
CONTENTS



               Portsmouth Facility Design

               Details of Finding ...................................................................... 1

               Recommendations and Comments ........................................... 3


               Appendices

               1. Objective, Scope, and Methodology ..................................... 5

               2. Prior Audit Reports ............................................................... 6

               3. Management Comments ...................................................... 7
PORTSMOUTH FACILITY DESIGN

Background            In January 2002, the Department of Energy (Department) solicited
                      proposals to design, build, and operate two facilities for the conversion
                      of 704,000 tons of depleted uranium hexafluoride (DUF6) into a more
                      stable form for disposal. The proposed contract term only awarded the
                      first 5 years of operations to the successful bidder, even though bidders
                      were expected to design facilities that would take up to 25 years to
                      convert the entire inventory. In response, Uranium Disposition
                      Services, LLC (UDS) proposed building facilities at the Paducah and
                      Portsmouth Gaseous Diffusion Plants. The Paducah facility was
                      designed to process the estimated 450,000 metric tons of DUF6 at
                      Paducah within 25 years, while the Portsmouth facility would process
                      the remaining estimated 254,000 metric tons located at Portsmouth and
                      Oak Ridge within 19 years. Since the inventory at Paducah was almost
                      twice that of Portsmouth and Oak Ridge combined, UDS proposed
                      building a smaller facility at Portsmouth that would still be capable of
                      converting its inventories within the required timeframe. UDS was
                      awarded the $500 million contract on August 29, 2002.

Portsmouth Facility   We found that the Department's plan for converting DUF6 inventories
Capacity              at Portsmouth emphasized initial capital costs rather than minimizing
                      life-cycle costs. The Department's current plan to operate a smaller
                      facility at Portsmouth for 19 years is less cost effective than building a
                      facility with the same capacity as Paducah and completing the
                      conversion within approximately 14 years. Based on its current
                      contract with the Department, UDS is designing the Portsmouth facility
                      with three conversion lines. These lines will be capable of processing
                      13,500 metric tons of depleted uranium hexafluoride per year. At this
                      rate, UDS could treat 198,000 metric tons of material stored at
                      Portsmouth and 56,000 metric tons stored at Oak Ridge in
                      approximately 19 years. By adding another conversion line,
                      Portsmouth could process 4,500 metric tons of additional material
                      annually. The additional conversion line would increase capital costs
                      by about $5.6 million; however, it would also reduce life-cycle
                      operating costs by $60.2 million, allowing the project to be completed
                      nearly 5 years earlier than planned.

                      We presented our conclusions to UDS and the Department's Office of
                      Engineering and Construction Management (OECM) during the audit.
                      UDS reviewed the potential savings calculations and agreed they were
                      reasonable. OECM, based on our presentation, directed its contractor --
                      a non-profit consulting organization dedicated to improving public-
                      sector management -- to review our calculations. The consulting



Page 1                                                                      Details of Finding
                        organization came to similar conclusions and issued a formal report1/ to
                        OECM that stated actual savings could be as high as $70 million.

                        In contrast to our findings at Portsmouth, it should be noted that it would
                        not be feasible to add additional conversion lines to the Paducah Facility.
                        Specifically, the Paducah conversion facility site is bordered by two
                        permanent structures, a cylinder yard and protected wetlands. Therefore,
                        to increase the capacity at Paducah, a new site selection and evaluation
                        analysis would have to be completed. These activities could
                        substantially delay the project causing the Department to miss the
                        congressionally-mandated milestones.

Request for Proposals   When the Department issued the request for proposals on the conversion
                        project, it did not emphasize minimizing life-cycle costs. The design
                        basis in the request for proposal stated, "The conversion facilities shall
                        be capable of processing…cylinders…at a rate such that the total DUF6
                        inventory at all three sites could reasonably be converted and
                        dispositioned in no longer than 25 years after conversion operations
                        start, subject to constraints of projected funding levels." In addition, cost
                        estimates for the contract term were deemed a higher priority than life
                        cycle costs. As a result, the bidders had little incentive to propose larger
                        facilities to increase throughput, because larger facilities would increase
                        proposed contract costs. In fact, UDS management stated that they
                        chose one of the smallest facility designs possible to complete the
                        conversion process within the 25-year requirement, thereby reducing the
                        design, construction, and operational costs during the contract term.

Cost and Schedule       The Department has an opportunity to save at least $55 million by
Reductions              adding an additional conversion line at the Portsmouth facility. These
                        savings are the result of accelerated schedules and the increased
                        throughput. Based on our calculations, while the additional line will cost
                        about $5.6 million to build, the Portsmouth inventory will be converted
                        about 5 years sooner, saving about $60.2 million in estimated operating
                        costs. The Department agreed that modifying the design of the
                        Portsmouth facility would result in a positive return on investment.
                        However, Department officials stated that other factors, including
                        schedule impacts and design basis safety issues, required consideration.
                        We agree that these factors are important and should be considered by
                        the Department as part of a cost-benefit analysis.



                        1
                         DUF6 Project Reconfiguration Limited Review LMI Analysis for OECM, DE424S/
                        November 2003.


Page 2                                                                           Details of Finding
                  Reducing the conversion cycle by nearly 5 years would also be
                  consistent with the Office of Environmental Management's (EM)
                  planned cleanup schedule for the Portsmouth facility. The
                  Department's current approach for converting DUF6 at Portsmouth
                  will not be able to meet EM's closure baseline with only three
                  conversion lines. However, if the facility is designed with four
                  conversion lines, the accelerated schedule will give the Department
                  additional time to complete decontamination and decommissioning
                  of the facilities.

RECOMMENDATIONS   We recommend that the Manager, Portsmouth Paducah Project
                  Office:

                         1. Conduct a cost-benefit analysis to determine the optimum
                            size and operation of the Portsmouth depleted uranium
                            hexafluoride conversion facility; and,

                         2. Based on the results of the review, implement the most
                            cost effective approach.

MANAGEMENT        The Assistant Secretary for Environmental Management agreed with
REACTION          the basic thrust of the report, which identified cost savings by
                  processing more material each year. In its response to the
                  recommendations, EM stated that it has been able to achieve higher
                  throughput rates without constructing additional process lines. These
                  improvements were achieved by making process changes to increase
                  the efficiency of the existing equipment. Given this experience, EM
                  believes that the DUF6 project can improve its operations, increase
                  throughput, and save costs without the additional line. EM also
                  stated that this approach will minimize the facility footprint, thereby
                  reducing decommissioning and demolition costs, as well as reducing
                  the volume of waste generated during decontamination and
                  decommissioning operations. In addition, management asserted that
                  the Office of Inspector General (OIG) recommendations were based
                  on an analysis conducted by the Logistics Management Institute
                  (LMI) for OECM.

                  Subsequent discussions were held with EM to clarify the
                  Department's position on these issues. Management stated that the
                  decision process to size and operate the conversion facility includes
                  many factors beyond cost. Consideration is also given to overall risk
                  reduction and the project's priorities within the context of the entire
                  EM program, issues which may not be considered in a cost-benefit


Page 3                                           Recommendations and Comments
                   analysis. Furthermore, EM is evaluating alternative ways to increase
                   contractor innovation and accelerate project completion through
                   improved contract incentives.

AUDITOR COMMENTS   While management agreed that increasing throughput is desirable, its
                   comments do not address the report's recommendations. EM's position
                   is that process improvements can be made without capital additions,
                   thereby minimizing decontamination and decommissioning costs at the
                   end of the project. However, this decision was arrived at without any
                   quantitative analysis of alternatives. Hence, while we appreciate EM's
                   efforts to improve processing efficiencies throughout the Department,
                   we believe these efficiencies could be augmented by cost savings from
                   increasing the capacity. A cost-benefit analysis is the primary
                   quantitative means whereby the Department will be able to assess many
                   key factors, including an increase in facility size, incentivizing the
                   contractor to optimize the facility beyond the 84 percent efficiency
                   already planned, and the additional decontamination and
                   decommissioning costs.

                   Finally, in its response, EM stated that the principal basis for these
                   recommendations is an analysis conducted by the LMI for OECM. As
                   noted in LMI's report, the reported savings were based on our analysis.
                   The LMI study was initiated by OECM in response to our audit
                   findings.




Page 4                                              Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department has implemented an efficient
              plan for conversion of its depleted uranium hexafluoride inventory.

SCOPE         The audit was performed at the Oak Ridge Operations Office, Oak
              Ridge, Tennessee, from October 1 to November 7, 2003. The audit was
              limited to an evaluation of the Department's Depleted Uranium
              Hexafluoride Conversion Project activities at Portsmouth, Ohio, and
              Paducah, Kentucky, from 1999 through 2003.

METHODOLOGY   To accomplish the audit objective, we:

                    • Reviewed the current design for the Portsmouth and Paducah
                      conversion facilities;

                    • Reviewed costs associated with the depleted uranium
                      hexafluoride conversion facilities project;

                    • Evaluated the Department's procurement strategy for the
                      depleted uranium hexafluoride conversion facilities and
                      supporting documentation;

                    • Held discussions with Departmental and contractor personnel;
                      and,

                    • Participated in the Office of Engineering and Construction
                      Management's review of our cost savings calculation.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not conduct a reliability assessment of computer-processed data
              because only a limited amount of computer-processed data was used
              during the audit.

              We held an exit conference with the Manager of the Portsmouth
              Paducah Project Office on February 19, 2004.




Page 5                                          Objective, Scope and Methodology
Appendix 2

                                       PRIOR AUDIT REPORT



     •   Waste Incineration at the Savannah River Site (DOE/IG-0453, October 1999). The
         Consolidated Incinerator Facility (CIF) at the Savannah River Site was not operating at its
         permitted capacity. The CIF was operated at about 8 percent of capacity in Fiscal Years
         1997 and 1998. This occurred because the Department designed the CIF to incinerate more
         waste than the Savannah River Site had available for treatment.




Page 6                                                                                Prior Audit Report
Appendix 3




Page 7       Management Comments
Appendix 3 (continued)




Page 8                   Management Comments
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
